No. _______

In The

Supreme Court of the United States
SHELDON W. CARMAN,
v.

Petitioner,

CSX TRANSPORTATION, INC.,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

APPENDIX

Sidney W. Gilreath, #212229
Counsel of Record for Petitioner
Gilreath & Associates
550 Main Street, Suite 600
Knoxville, TN 37901
Telephone: (865) 999-1018
Facsimile: (865) 971-4116
gilknox@sidgilreath.com
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX:
Order by the Sixth Circuit Court of Appeals
Affirming District Court’s Opinion [Doc. 66] .......... A1
District Court’s Memorandum Opinion [Doc.
60] ............................................................................. A4
District Court’s Order Granting Summary
judgment [Doc. 61] ................................................. A17
District Court’s Entry of Judgment [Doc. 62] ....... A18
Order by the Sixth Circuit Court of Appeals
Denying Petition for Rehearing [Doc. 32-1] .......... A19
Text of 49 U.S.C. § 51............................................. A20

A1
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0212n.06
Case No. 19-6035
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED APRIL 15, 2020
DEBORAH S. HUNT, CLERK
SHELDON CARMON,
Plaintiff-Appellant,
v.
CSX TRANSPORTATION, INC.,
Defendant-Appellee.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE DISTRICT
OF TENNESSEE
BEFORE: BATCHELDER, GIBBONS, and
SUTTON, Circuit Judges.
ALICE M. BATCHELDER, Circuit Judge.
CSX Transportation, Inc. (CSX) employed Sheldon
Carmon as a welder and, while on the job, Carmon
tripped on a signal wire that was partially above
ground, fell, and sustained serious injuries. Carmon
sued CSX pursuant to the Federal Employers
Liability Act (FELA), 45 U.S.C. §§ 51-60, claiming
that CSX was negligent in its installation,
inspection, and maintenance of the signal wire, and

A2
thereby failed to provide him with a safe workplace.
CSX moved for summary judgment, asserting that
Carmon had no evidence concerning the installation
of the wire, much less that it was done negligently;
could not rebut CSX’s proffered evidence of its
inspection practices; and could not show that its
maintenance was negligent because he had no
evidence that CSX had actual or constructive
knowledge that this particular wire was out of place
or posing a danger. The district court agreed, finding
that Carmon “has not carried his burden to show
that [CSX] had actual or constructive notice of the
alleged exposed signal wire, a necessary element for
his claim of negligence under FELA,” and granted
summary judgment. Carmon v. CSX Transportation,
Inc., No. 3:17-cv-00966, 2019 WL 3857895, at *5
(M.D. Tenn. Aug. 15, 2019) (“[Carmon]’s conclusory
and unsupported assertions are insufficient to create
a genuine issue of material fact and defeat summary
judgment.”). Carmon appealed, arguing that the
district court’s assessment of the evidence was
incorrect and that he had produced sufficient
evidence to create a genuine question of material
fact for determination by a jury and to overcome
summary judgment. Carmon also raises a new
theory on appeal that he did not raise to the district
court; namely, that Carmon’s coworker, who was
with him when he tripped and fell, had seen the
exposed wire but had failed to warn Carmon and,
Carmon argues, that failure was negligence
imputable to CSX. But for “rare circumstances,”
which are neither argued nor present in this case,
we do not consider arguments raised for the first
time on appeal. Swanigan v. FCA US LLC, 938 F.3d
779, 787 (6th Cir. 2019).

A3
After carefully reviewing the law, the arguments
before the district court, and the record evidence, we
conclude that the district court correctly assessed
the proffered evidence and correctly applied the law
to it. The issuance of a full written opinion by this
court would serve no useful purpose. Accordingly, for
the reasons stated in the district court’s opinion, we
AFFIRM.

A4
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
NO. 3:17-cv-00966
JUDGE RICHARDSON
SHELDON W. CARMON
Plaintiff,
v.
CSX TRANSPORTATION, INC.,
Defendant.
MEMORANDUM OPINION
Summary Judgment (Doc. No. 30). Plaintiff has
filed a Response (Doc. No. 39), Defendant has filed a
Reply (Doc. No. 41), and with the Court’s permission
(Doc. No. 46), Defendant has filed a Sur-Reply (Doc.
No. 47).
BACKGROUND
Plaintiff Carmon filed this action pursuant to the
Federal Employers Liability Act (“FELA”), 45 U.S.C.
§§ 51–60. In his Complaint, Plaintiff alleges that he
was employed by Defendant CSX Transportation,
Inc. (“CSXT”), which is a common carrier operating
railroads throughout the Southeast. Plaintiff asserts
that he was a welder and welder helper for
Defendant and was injured in the course and scope
of his employment on December 6, 2016. He claims
that he was at Ekin control point north of Nashville,

A5
near Madison, Tennessee, walking south on the east
side of the Number 2 Main Line, at which point he
tripped on a signal wire that was partially above
ground but not visible. Plaintiff alleges that he fell
over the signal wire and sustained serious, painful
and permanent injury to his neck area, resulting in
permanent disability. Plaintiff sued Defendant for
negligence under FELA.
SUMMARY JUDGMENT
Summary judgment is appropriate where there
is no genuine issue as to any material fact and the
movant is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(c). “By its very terms, this
standard provides that the mere existence of some
alleged factual dispute between the parties will not
defeat an otherwise properly supported motion for
summary judgment; the requirement is that there be
no genuine issue of material fact.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247-48 (1986). In
other words, even if genuine, a factual dispute that
is irrelevant or unnecessary under applicable law is
of no value in defeating a motion for summary
judgment. See id. at 248. On the other hand,
“summary judgment will not lie if the dispute about
a material fact is ‘genuine[.]’” Id. A fact is “material”
within the meaning of Rule 56(c) “if its proof or
disproof might affect the outcome of the suit under
the governing substantive law.” Anderson, 477 U.S.
at 248. A genuine dispute of material fact exists if
the evidence is such that a reasonable jury could
return a verdict for the nonmoving party. Harris v.
Klare, 902 F.3d 630, 634-35 (6th Cir. 2018).

A6
The party bringing the summary judgment
motion has the initial burden of identifying portions
of the record that demonstrate the absence of a
genuine dispute over material facts. Pittman v.
Experian Information Solutions, Inc., 901 F.3d 619,
627-28 (6th Cir. 2018). If the summary judgment
movant meets that burden, then in response the
non-moving party must set forth specific facts
showing that there is a genuine issue for trial. Id. at
628.
A party asserting that a fact cannot be or
genuinely is disputed—i.e., a party seeking summary
judgment and a party opposing summary judgment,
respectively—must support the assertion by citing to
materials in the record, including, but not limited to,
depositions, documents, affidavits or declarations.
Fed. R. Civ. P. 56(c)(1)(A). The court should view the
facts and draw all reasonable inferences in favor of
the non-moving party. Pittman, 901 F.3d at 628.
Credibility judgments and weighing of evidence are
improper. Hostettler v. College of Wooster, 895 F.3d
844, 852 (6th Cir. 2018). As noted above, where there
is a genuine dispute as to any material fact,
summary judgment is not appropriate. Id. The court
determines whether sufficient evidence has been
presented to make the issue of fact a proper jury
question. Id. The mere existence of a scintilla of
evidence in support of the nonmoving party’s
position will be insufficient to survive summary
judgment; rather, there must be evidence upon
which the jury could reasonably find for the
nonmoving party. Rodgers v. Banks, 344 F.3d 587,
595 (6th Cir. 2003).

A7
NEGLIGENCE UNDER FELA
FELA was specially enacted by Congress to
afford relief to employees from injury incurred in the
railway industry. Seto v. CSX Transp. Inc., Civil No.
3:15-cv-1135, 2017 WL 4556723, at * 7 (M.D. Tenn.
July 6, 2017) (citing Edsall v. Penn Cent. Transp.
Co., 479 F. 2d 33, 35 (6th Cir. 1973)). FELA provides
that every railroad common carrier engaged in
interstate commerce shall be liable in damages to
any person suffering injury while he is employed by
such carrier for such injury resulting in whole or in
part from the negligence of any of the officers,
agents, or employees of such carrier. 45 U.S.C. § 51.
FELA does not impose a duty to eliminate all
workplace dangers; instead, it requires railroads to
provide their employees with a reasonably safe
workplace. Gilreath v. CSX Transp., Inc., No. 6:16cv-96, 2018 WL 737607, at * 4 (E.D. Ky. Feb. 6,
2018).
In order to recover damages under FELA, a
plaintiff must show that: (1) he was injured while in
the scope of his employment; (2) which employment
was in furtherance of the railroad’s interstate
transportation business; (3) his employer was
negligent; and (4) his employer’s negligence played
some part in causing the injury for which he seeks
compensation. Seto, 2017 WL 4556723 at * 8. To
show that the employer is liable for negligence, the
employee must prove the traditional common law
elements of negligence—duty, breach, foreseeability,
and causation. Id. An essential element of a
plaintiff’s FELA negligence claim is that the injury
he sustained was reasonably foreseeable to the
defendant. CSX Transp. v. McBride, 564 U.S. 685,

A8
703 (2011); Beamer v. CSX Transp., Inc., Case No.
3:10-cv-472, 2014 WL 12588330, at * 3 (S.D. Ohio
Mar. 31, 2014). To overcome a motion for summary
judgment based on foreseeability of harm, a plaintiff
must present evidence sufficient to give rise to a
reasonable inference that the defendant “knew or
should have known that it was not acting adequately
to protect its employees.” Id.; Williams v. Grand
Trunk Western R.R., Inc., 352 F. App’x 13, 17 (6th
Cir. 2009). In other words, a railroad has breached
its duty when it “knew, or by the exercise of due care
should have known, that prevalent standards of
conduct were inadequate to protect employees.”
Gilreath, 2018 WL 737607, at * 4. Thus, if a person
has no reasonable ground to anticipate that a
particular condition would or might result in a
mishap and an injury, then the party is not required
to do anything to correct the condition. McBride, 564
U.S. at 703.
To establish liability under FELA, a plaintiff
must also prove that the railroad’s negligence1 was
“in whole or in part the cause of the injury.” Gulliver
v. National R.R. Passenger Corp., No. 16-cv-2219,
2019 WL 2613214, at * 2 (D. D.C. Apr. 25, 2019)
(quoting Ellis v. Union Pac. R. Co., 329 U.S. 649, 653
(1947)) But a relaxed standard of causation applies,
under which a railroad is deemed to have caused or
contributed to a railroad worker’s injury if the
The Supreme Court has defined “negligence” under FELA as
“the lack of due care under the circumstances, or the failure to
do what a reasonable and prudent man would ordinarily have
done under the circumstances of the situation.” Gulliver, 2019
WL 2613214 at * 2. The question is whether the carrier failed
to observe “that degree of care which people of ordinary
prudence and sagacity would use under the same or similar
circumstances.” Id. (citing McBride, 564 U.S. at 703).
1

A9
railroad’s negligence played a part—no matter how
small—in bringing about that injury. McBride, 564
U.S. at 705. The test is “whether the proofs justify
with reason the conclusion that employer negligence
played any part, even the slightest, in producing the
injury” for which damages are sought. Sapp v. CSX
Transp., Inc., No. 3-09-0581, 2010 WL 4055951, at *
11 (M.D. Tenn. Oct. 15, 2010).2
Plaintiff contends that Defendant was negligent
in laying the signal wire, failing to provide Plaintiff
with a safe place to work, and failing to adequately
maintain and inspect the work area and signal wire.
Defendant first asserts that Plaintiff has no evidence
that CSXT negligently installed the signal wire.
Defendant argues that with no evidence of how or
when CSXT installed the wire, Plaintiff cannot show
that it was negligently installed. Defendant has
shown that Plaintiff took no discovery relevant to
the signal wire’s installation and has presented no
factual support for this argument. Defendant has
carried its initial burden on this issue.
In his Response, Plaintiff states only that the
signal wire “had been installed by the signal
department of CSXT,” a fact undisputed by
Defendant. Although he later alleges that “[t]here is
evidence in the record that CSXT negligently
installed the signal wire by leaving it above ground”
(Doc. No. 39 at 3), Plaintiff cites nothing in the

In light of this “prescription for proximate causation in FELA
cases,” McBride, 564 U.S. at 705, a railroad “caused or
contributed to” a worker’s injury if the railroad’s negligence
played a part, no matter how small, in bringing about the
injury. Id. It follows, therefore, that there are no issues of
contributory negligence or comparative fault in this case.
2

A10
record for that assertion.3 Plaintiff also alleges that
“there is evidence in the record that defendant CSXT
created the condition” (Id. at 4), but again he cites
nothing in the record for that assertion. Plaintiff has
not identified when or how the installation was
conducted, by whom, or in what way the installation
was negligent. Plaintiff has failed to point to any
specific evidence in the record or come forward with
any evidence to show that Defendant negligently
installed the subject signal wire, so that portion of
his negligence claim will be dismissed.
Next, Defendant argues there is no evidence that
Defendant failed to adequately maintain and inspect
Plaintiff’s work area and that this in turn reveals a
lack of evidence that Defendant negligently failed to
provide a safe place for Plaintiff to work. Defendant
has presented evidence that its “signal maintainer,”
Michael Kelley, noticed some exposed wires within
the Ekin control point on November 28, 2016, and
that he buried those wires (Doc. No. 32-4).
Defendant has also presented evidence that its
“roadmaster,” Stephen Love, “high-railed” the Ekin
control point area multiple times per week in the
month preceding Plaintiff’s fall and did not observe
any exposed conduit or signal wires (Doc. No. 32-2).
Defendant has pointed to Plaintiff’s deposition to
show that neither Plaintiff nor his co-worker saw the
subject signal wire the day of Plaintiff’s fall (Doc. No.

On that same page, Plaintiff states that Defendant created
the hazard “by failing to install” signal wire and that “[b]y
failing to install wire,” Defendant created a hazardous
condition. The Court is perplexed as to how Defendant could
have both failed to install and negligently installed the subject
signal wire.
3

A11
32-1). Defendant has carried its initial burden on
this issue.
Plaintiff asserts, in response to Defendant’s
motion, that in fact Kelley was not at the Ekin
control point on November 28, 2016 and that Love
did not inspect the Ekin control point area in the
weeks prior to Plaintiff’s fall. The evidence upon
which Plaintiff relies appears to be “Sworn
Statements” of Victor Reed, Norman Bess, and
Wesley Grogan (Doc. Nos. 38-1, 38-2, and 38-3).
Reed, Bess, and Grogan are CSX employees whose
sworn statements were taken by Plaintiff’s counsel
without cross-examination by (or even notice to)
Defendant. In a prior Order (Doc. No. 46), the Court
ruled that it would treat these “Sworn Statements”
as affidavits in support of Plaintiff’s position and
would allow Defendant additional time to depose
and/or file its own affidavits from these witnesses.
Id.
In their statements, Bess and Grogan testified,
when shown a certain document by Plaintiff’s
counsel, that the document was a CSX “704 EC-1
report” that reflected the names of CSX employees
who obtained permission to work on certain parts of
the tracks by obtaining certain required “704
protection” from Defendant to keep them safe while
working there. Bess explained that the protection
was to ensure that tracks being worked on had no
trains coming: “no trains or anything is supposed to
come into that area unless you give them permission
to.” Doc. No. 38-2 at 11. Based solely upon the
document produced by Plaintiff’s counsel, Bess
testified that Kelley was not at the Ekin control
point on November 28, 2016 (as he claimed) because
there was no record that he had the required 704

A12
safety protection for that day (Doc. No. 38-2 at 1112). Gorgan testified, based on the same document,
that Love was not at the Ekin control point the week
before December 6, 2016 (as he claimed) because
there was no record that he had requested or
obtained the required 704 protection for that time
period (Doc. No. 38-3 at 8-9).
Defendant has shown, however, that there are
four ways to obtain the required protection for
working on the tracks, and Plaintiff has not
addressed the other three ways. Grogan noted in his
sworn statement that one way an employee could do
the work without getting an EC-1 or 704 protection
was by having another person with him as a
“watchman lookout” (Doc. No. 38-3 at 8). At his
subsequent deposition, Grogan confirmed that there
are actually four ways a railroad worker can have
permission to work on a track: 704 protection, “707
protection,” “watchman protection,” and “long
worker protection” (Doc. No. 47-1 at 4). He stated
that “watchman protection” is satisfied if there are
two employees at the site, one to do the work and
one to watch the tracks (Id. at 5). He also stated that
when two employees work together, if one employee
has 704 protection, the other employee does not also
have to request protection (Id. at 6). Finally, he
testified that if there were a group of three signal
maintainers out burying wires at the same place,
they could us the watchman protection to accomplish
their work (Id. at 12). Grogan also stated that he did
not know what Mike Kelley did on November 28,
2016, whether he was at the Ekin site or not (Doc.
No. 47-1 at 10 (Dep. at 21)).
In response, Michael Kelley declared that on
November 28, 2016, when he buried the signal wires
at Ekin control point, he was part of a crew of three
men, one of whom acted as the watchman, so they

A13
had watchman protection and were not required to
get 704 protection (Doc. No. 41-3). His statement is
supported by statements from the other members of
his “crew.” (Id.) Similarly, in response to Plaintiff’s
assertion that Stephen Love could not have been in
the Ekin area before Plaintiff’s fall (since Love
lacked 704 protection), Love has stated that when he
“high-railed” the Ekin area in the weeks before
Plaintiff’s fall, he made those inspections with other
employees who had obtained the relevant protections
for their work (Doc. No. 41-4).4 Nothing in Plaintiff’s
filings disputes these assertions.5 The Court finds
that Plaintiff has not rebutted the testimony of
Kelley and Love regarding their inspection and work
at the Ekin control point in the weeks just before
Plaintiff’s fall.

For both Kelley and Love, their respective Second
Declarations do not contradict their respective First
Declarations on these points, because nothing was discussed in
the First Declarations about these forms of protection.
4

Love’s explanation also rebuts Plaintiff’s expert’s assertion
that Love did not use a high-rail vehicle on this track shortly
before Plaintiff’s injury on December 6, 2016. The document
upon which Plaintiff’s expert relies in making this assertion
(Doc. No. 38-4 at 10) is a report of “Form 704 Minutes” and “All
Form 704 Time.” According to Plaintiff’s expert, this document
shows all of Love’s use of a high-rail vehicle between
September 1, 2016 and July 1, 2017, and yet does not show any
such use prior to December 6, 2016. Actually, however, by its
terms this document does not purport to show Love’s use of a
high-rail vehicle; instead, by its terms it purports to show only
Love’s Form 704 Time (Id.) As Love explained, the Form 704
Minutes would record the time for which Love obtained 704
protection in particular, but not necessarily all the time he
worked on this particular track (in a high-rail vehicle or
otherwise), because he made inspections with others who
obtained the relevant protection. (Doc. No. 41-4).

5

A14
In any event, Plaintiff has not shown that
Defendant knew or should have known that this
particular signal wire was out of place. He has not
demonstrated that Defendant had actual or
constructive notice of the exposed wire. For example,
he has not presented evidence that any of
Defendant’s employees actually saw the exposed
wire before Plaintiff fell, that anyone complained
about or reported dangers concerning this wire, that
anyone had previously fallen in the same place, or
that anyone had requested repairs at this spot.
Plaintiff’s expert, Joe Lydick, opined in his
Affidavit (Doc. No. 38-4) that Defendant was
negligent in its construction of the wire in question.
He testified, however, that he did not know or
investigate when the wire was installed (Doc. No. 323 at 3-4 (Dep. at 12 and 19)) and has no evidence
that the wire was exposed when installed, since he
does not know how long it had been exposed. (Doc.
No. 32-3 at 7 (Dep. at 60)). He knows only how it
appeared on the day of Plaintiff’s fall (from
photographs) and the day he later inspected it. (Id.)
Lydick has shown no factual basis for opining that
the wire was negligently installed. In fact, there is
no evidence in the record of how or when Defendant
installed the signal wire at issue.
Lydick also opines that Defendant negligently
exposed Plaintiff to an unnecessary risk by leaving
exposed bootleg wires lying on top of the ballast.
(Doc. No. 38-4). Plaintiff has conceded, however, that
Lydick has no knowledge of how long the subject
wire was exposed, when the area was last inspected,
or whether Defendant knew of the wire’s condition
before Plaintiff fell. (Doc. No. 38 at ¶ 18). Lydick
agreed that he has no evidence that anyone had

A15
reported the exposure to Defendant (Doc. No. 32-3 at
7-8 (Dep. at 60-61)). There is no dispute that a wire
was exposed. What Lydick has not shown is a factual
basis for opining that Defendant knew or should
have known6 that the wire was exposed.
These gaps in Lydick’s personal knowledge of the
condition of the wire and tracks in the period before
Plaintiff fell suggest that Lydick’s opinions fail to
provide a basis for a finding of constructive
knowledge by Defendant. Moreover, Lydick did not
otherwise provide a factual basis for a finding of
constructive knowledge, such as by relying on
information that, though not within his personal
knowledge, is typically relied upon by experts in his
field in forming this kind of opinion. His lack of
personal knowledge also undermines his opinions
that Defendant was not in compliance with
regulations and its own drawings concerning the
installation and maintenance of signal wires.
Furthermore, Mr. Lydick’s opinions regarding
the seminal issue of whether Defendant was
negligent, though not necessarily inadmissible, are
entitled to little weight because the Court is
equipped to opine on this itself, without alleged
expert assistance, based on the evidence before it.
And Mr. Lydick’s opinions fail to save Plaintiff’s
claims for an even more basic reason: none has not
been shown to be an admissible expert opinion. That
As explained above, to show Defendant’s negligence, Plaintiff
must show that Defendant had a reasonable ground to
anticipate that a particular condition would or might result in a
mishap and an injury; in other words, Plaintiff must show that
Defendant had actual or constructive notice of the allegedly
dangerous condition. McBride, 564 U.S. at 703. Given the
evidence in this case, Plaintiff, at best, could hang his hat only
on constructive knowledge.
6

A16
is, his Affidavit fails to establish several requisites
for the admission of testimony under Fed. R. Evid.
702; for example, it does nothing to show that Mr.
Lydick’s opinion testimony is based on sufficient
facts or data and is the result of reliable principles
and methods that have been reliably applied to the
facts of this case. See Fed. R. Evid. 702(b)-(d).
Plaintiff’s conclusory and unsupported assertions
are insufficient to create a genuine issue of material
fact and defeat summary judgment. The Court finds
that Plaintiff, in response to Defendant’s satisfaction
of its initial burden, has not carried his burden to
show that Defendant had actual or constructive
notice of the alleged exposed signal wire, a necessary
element for his claim of negligence under FELA.
Therefore, Plaintiff’s claim must be dismissed.
CONCLUSION
Plaintiff’s injury is unfortunate, but proof of
injury itself, absent proof of negligence, is not
sufficient for recovery. Johnson v. Grand Trunk
Western R.R., Inc., No. 07-cv-11129, 2008 WL
283703, at * 3 (E.D. Mich. Jan. 31, 2008) (workplace
injury alone is not sufficient to establish negligence
under FELA); Wheeler v. Ill. Cet. R.R. Co., Civil
Action No. 2:09cv008, 2010 WL 4867410, at * 6 (S.D.
Miss. Nov. 9, 2010) (same). For these reasons,
Defendant’s Motion for Summary Judgment (Doc.
No. 30) will be granted, and Plaintiff’s FELA claims
will be dismissed. An appropriate Order will be
entered.
/s/ Eli Richardson
United States District Judge

A17
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
NO. 3:17-cv-00966
JUDGE RICHARDSON
SHELDON W. CARMON
Plaintiff,
v.
CSX TRANSPORTATION, INC.,
Defendant.
ORDER
Pending before the Court is Defendant’s Motion
for Summary Judgment (Doc. No. 30). For the
reasons stated in the accompanying Memorandum
Opinion, Defendant’s Motion is GRANTED, and this
action is DISMISSED. The Clerk is directed to close
the file. This Order shall constitute the final
judgment for purposes of Fed. R. Civ. P. 58.
IT IS SO ORDERED.
/s/ Eli Richardson
United States District Judge

A18
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
Sheldon W. Carmon
Plaintiff,
v.
CSX Transporation, Inc.
Defendant,

Case No.: 3:17−cv−00966

ENTRY OF JUDGMENT
Judgment is hereby entered for purposes of Rule
58(a) and/or Rule 79(a) of the Federal Rules of Civil
Procedure on 8/16/2019 re [61].
Kirk L. Davies
s/ Jessica Wayman, Deputy Clerk

A19
No. 19-6035
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED MAY 13, 2020
DEBORAH S. HUNT, CLERK
SHELDON CARMON,
Plaintiff-Appellant,
v.
CSX TRANSPORTATION, INC.,
Defendant-Appellee.
ORDER
BEFORE: BATCHELDER, GIBBONS, and
SUTTON, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court.* No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/S/ DEBORAH S. HUNT, CLERK
____________________
*Judge White recused herself from participation in
this ruling.

A20
Text of 49 U.S.C. §51
§ 51. Liability of common carriers by railroad, in
interstate or foreign commerce, for injuries to
employees from negligence; employee defined
Every common carrier by railroad while engaging in
commerce between any of the several States or
Territories, or between any of the States and
Territories, or between the District of Columbia and
any of the States or Territories, or between the
District of Columbia or any of the States or
Territories and any foreign nation or nations, shall
be liable in damages to any person suffering injury
while he is employed by such carrier in such
commerce, or, in case of the death of such employee,
to his or her personal representative, for the benefit
of the surviving widow or husband and children of
such employee; and, if none, then of such employee's
parents; and, if none, then of the next of kin
dependent upon such employee, for such injury or
death resulting in whole or in part from the
negligence of any of the officers, agents, or
employees of such carrier, or by reason of any defect
or insufficiency, due to its negligence, in its cars,
engines, appliances, machinery, track, roadbed,
works, boats, wharves, or other equipment.
Any employee of a carrier, any part of whose duties
as such employee shall be the furtherance of
interstate or foreign commerce; or shall, in any way
directly or closely and substantially, affect such
commerce as above set forth shall, for the purposes
of this chapter, be considered as being employed by

A21
such carrier in such commerce and shall be
considered as entitled to the benefits of this chapter.
45 U.S.C.A. §51 (West)

